Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICAID DRUG REBATE
DISPUTE RESOLUTION COULD
      BE IMPROVED




                       Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                        August 2014
                       OEI-05-11-00580
EXECUTIVE SUMMARY: Medicaid Drug Rebate Dispute Resolution Could Be
Improved
OEI-05-11-00580

WHY WE DID THIS STUDY

The Medicaid drug rebate program is a significant source of savings for States and the Federal
government. Between 2011 and 2013, the rebate program saved Medicaid an average of
$17.5 billion annually—an amount that will grow as a result of changes made by the Affordable
Care Act. Sometimes, however, States and drug manufacturers do not agree on the amount of
money that manufacturers owe in rebates. In such cases, the manufacturer and the State may
enter into a dispute. Disputes are a matter of concern because they can lead to inefficient use of
resources and lost money for States and the Federal Government.

HOW WE DID THIS STUDY

We requested data from 31 States to determine the extent to which rebate amounts were
disputed. We also surveyed 12 States (including 6 from the group of 31) in more depth to
determine the causes of the most frequent types of disputes and the challenges associated with
resolving them. We interviewed relevant staff from these States, five manufacturers, and the
Centers for Medicare & Medicaid Services (CMS) to determine the measures that each has taken
to prevent and resolve disputes.

WHAT WE FOUND

Twenty-nine of thirty-one States that could provide data estimated that only a small percentage
of rebate dollars were disputed. The 12 selected States indicated that within this small
percentage, certain types of disputes occur frequently. These States reported that poor-quality
claims data lead to disputes regarding unit-of-measure conversions and physician-administered
drugs. In addition, States reported that poor-quality data regarding ineligible drugs lead to
disputes about drugs purchased at a discount under the 340B Drug Pricing Program and
terminated drugs.

The 12 selected States reported that once disputes are initiated, they struggle to provide the data
necessary to resolve them. States reported difficulties in providing claims data or source data to
help resolve disputes. Finally, the selected States and manufacturers expressed interest in greater
CMS involvement in preventing and resolving disputes.

WHAT WE RECOMMEND

We recommend that to help prevent and resolve drug rebate disputes, CMS (1) work with States
to improve the quality of claims data submitted by providers and pharmacies, (2) help States
obtain better data on ineligible drugs, (3) facilitate States’ submission of standardized claims
data, and (4) establish a stronger role in dispute resolution. CMS concurred with our
first three recommendations and partially concurred with our fourth recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           Twenty-nine of thirty-one selected States estimated that only a 

           small percentage of rebate dollars were disputed ............................7 

           Poor-quality data is a primary cause of frequent rebate disputes in 

           12 selected States .............................................................................7 

           Selected States struggle to provide the data necessary to resolve 

           disputes ..........................................................................................10 

           Selected States and manufacturers are interested in greater CMS 

           involvement in preventing and resolving disputes.........................11

Conclusion and Recommendations ............................................................14 

           Agency Comments and Office of Inspector General Response.....16 

Appendixes ................................................................................................18 

           A: Detailed Methodology .............................................................18 

           B: Agency Comments ...................................................................20 

Acknowledgments......................................................................................23 

                  OBJECTIVES
                  To determine:
                  1.	 the extent to which rebates are disputed under the Medicaid drug
                      rebate program,
                  2.	 the causes of frequently occurring types of disputes,
                  3.	 challenges that States face in resolving disputes,
                  4.	 the measures that States and drug manufacturers believe will help
                      prevent or resolve disputes.

                  BACKGROUND
                  The Medicaid drug rebate program is a significant source of savings for
                  States and the Federal government. Between 2011 and 2013, the rebate
                  program saved Medicaid an average of $17.5 billion annually. This
                  amount is likely to grow due to changes made by the Affordable Care Act
                  (ACA).
                  Drug manufacturers (hereinafter referred to as manufacturers) may dispute
                  the number of prescription drug units for which States are requesting
                  rebates. Disputes are a matter of concern because they can lead to
                  inefficient use of resources and lost money for States and the Federal
                  Government. In some cases, States and manufacturers spend significant
                  time investigating and addressing disputes. In addition, States may not be
                  receiving all of the rebates they are owed because of vulnerabilities in the
                  dispute-resolution process. Previous Office of Inspector General (OIG)
                  reports have found that some States were not resolving disputes in a timely
                  manner, potentially leading to a loss of rebate revenue.1
                  Medicaid Drug Rebate Program
                  Congress created the Medicaid drug rebate program to reduce State and
                  Federal Medicaid expenditures for prescription drugs.2 Manufacturers of
                  covered outpatient drugs (i.e., rebate-eligible drugs) are generally required




                  1
                    OIG, Multistate Review of Medicaid Drug Rebate Programs, A-06-03-00048,
                  July 2005; OIG, Nationwide Rollup Report for Medicaid Drug Rebate Collections,
                  A-06-10-00011, August 2011.
                  2
                    The Omnibus Budget Reconciliation Act of 1990, § 4401, codified at 42 U.S.C.
                  § 1396r-8. Social Security Act § 1927.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                        1
                  to enter into rebate agreements with the Secretary of Health and Human
                  Services and pay quarterly rebates to States.3
                  Most drugs covered under Medicaid are self-administered products (e.g.,
                  tablets) dispensed by pharmacies. However, Medicaid also covers
                  physician-administered drugs, which include both injectable and
                  noninjectable drugs that are typically administered by medical
                  professionals in physicians’ offices, clinics, or hospitals.4
                  Medicaid Drug Rebate Process
                  Rebates are calculated using two kinds of data: (1) pricing data submitted
                  by manufacturers and (2) utilization data (i.e., the total number of
                  rebate-eligible units for each drug) compiled by States.5 Each quarter,
                  manufacturers send pricing data to the Centers for Medicare & Medicaid
                  Services (CMS), which then calculates an unofficial unit rebate amount
                  (URA). CMS makes a URA for each national drug code (NDC) available
                  to States in the Drug Data Reporting (DDR) system for Medicaid.6, 7 Each
                  State determines the rebate amount that a manufacturer owes by
                  multiplying the URA for each of the manufacturer’s NDCs by the
                  corresponding number of rebate-eligible units. Manufacturers are
                  ultimately responsible for calculating an official URA and paying rebates
                  to States.
                  Rebate collection for physician-administered drugs. In contrast to drugs
                  dispensed by pharmacies, which are billed for using NDCs,
                  physician-administered drugs are typically billed for using Healthcare
                  Common Procedure Coding System (HCPCS) codes.8 Unlike NDCs,
                  HCPCS codes do not identify the manufacturer responsible for paying a
                  rebate. To assist States in collecting rebates for physician-administered
                  drugs, the DRA essentially required the States to provide for the gathering
                  of data (including NDCs) necessary to collect rebates for all single-source



                  3
                    Generally speaking, to be eligible to receive Federal payment for covered outpatient
                  drugs provided under Medicaid, manufacturers must enter into rebate agreements and pay
                  rebates to the State Medicaid programs. Sections 1927(a)(1) and (b)(1) of the Social
                  Security Act .
                  4
                    See, e.g., §§ 1927(k)(2) and (a)(7) of the Social Security Act (as added by the Deficit
                  Reduction Act of 2005 (DRA), P.L. No. 109-171).
                  5
                    See, generally, Social Security Act §§ 1927(b)(3)(A) and 1927(c)(1).
                  6
                    An NDC is an 11-digit identifier for prescription drugs that represents a specific
                  manufacturer, product, and package size.
                  7
                    The DDR is a Web-based application for all drug data collection. Manufacturers must
                  submit information on their drugs to the DDR. States can request access to view select
                  Medicaid drug rebate data.
                  8
                    A HCPCS code identifies the drug’s name, route of administration, and dosage size.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                              2
                  physician-administered drugs and the 20 multiple-source
                  physician-administered drugs with the highest dollar volume.9
                  Rebate exception for 340B-purchased drugs. Drugs purchased through the
                  340B Drug Pricing Program (340B program) are not subject to rebates
                  under the Medicaid drug rebate program. The 340B program requires
                  manufacturers to sell covered outpatient drugs to eligible health care
                  organizations, known as covered entities, at significantly reduced prices.10
                  Drugs purchased under the 340B program (340B-purchased drugs) are not
                  subject to Medicaid rebates because to do so would subject manufacturers
                  to a duplicate discount on these drugs.11
                  However, covered entities may choose to purchase drugs outside of the
                  340B program for their Medicaid patients. States may invoice
                  manufacturers for rebates for such drugs.
                  The Medicaid Exclusion File, maintained by the Health Resources and
                  Services Administration (HRSA), indicates whether covered entities
                  dispense 340B-purchased drugs to their Medicaid patients. States use this
                  information to exclude 340B-purchased drugs from the invoices they use
                  to collect rebates.
                  Drug Rebate Disputes
                  When a manufacturer, in good faith, does not believe that a State’s
                  utilization data for a particular NDC accurately represent the total number
                  of rebate-eligible units, the manufacturer may dispute the invoiced
                  amount.12 To initiate a rebate dispute, the manufacturer communicates the
                  number of units for each NDC that it is disputing (i.e., the number of units
                  that it believes not to be rebate-eligible) to the State and indicates the
                  reason it believes this number is incorrect. When a manufacturer initiates
                  a dispute, it can withhold payment only for the disputed numbers of units;
                  for all nondisputed numbers of units, the manufacturer is expected to pay
                  rebates in a timely manner.
                  Manufacturers may initiate disputes at any point in the process. In fact,
                  some manufacturers review old data and initiate disputes on previously



                  9
                    Section 1927(a)(7) of the Social Security Act (as added by the DRA, P.L. No. 109-171). 

                  10
                     See http://www.hrsa.gov/opa/index.html. The 340B program was established by the 

                  Veterans Health Care Act of 1992, P.L. No. 102-585 § 602 and codifed at 42 U.S.C.

                  §§ 256b. 

                  11
                     42 U.S.C. § 256b(a)(5). See also 58 Fed. Reg. 27293 (May 7, 1993). 

                  12
                     CMS, Sample Drug Rebate Agreement, § V(b). Accessed at http://www.medicaid.gov/

                  Medicaid-CHIP-Program-Information/By-Topics/Benefits/Prescription-Drugs/

                  Downloads/SampleRebateAgreement.pdf on April 23, 2014. 



Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                              3
                  paid rebates.13 As of fiscal year (FY) 2014, there was no Federal
                  requirement establishing a time limit to prevent manufacturers from
                  initiating disputes on claims that were paid years ago. However, the
                  President’s budget for FY 2015 includes a proposal to limit to 12 quarters
                  the timeframe for which manufacturers can dispute drug rebate amounts.
                  Resolving Drug Rebate Disputes
                  To resolve a dispute, States and manufacturers must come to an agreement
                  on the disputed units. If States can prove to manufacturers’ satisfaction
                  that the utilization data they invoiced was correct, manufacturers should
                  pay rebates for any disputed units.14 If States find errors in the utilization
                  data that they invoiced, they should adjust the number of units
                  accordingly.15 If States cannot provide evidence to manufacturers, it is
                  possible that the dispute will remain unresolved and manufacturers will
                  not pay rebates for the disputed units.
                  No time limit exists for resolving disputes. In fact, previous OIG reports
                  indicated that States may have disputes dating back many years.16
                  Although the rebate agreement says that States and manufacturers should
                  strive to resolve disputes within 60 days, this does not always happen.17
                  States have indicated that they generally try to resolve disputes within
                  1 year of paying providers’ claims for disputed units.
                  CMS involvement in dispute resolution. CMS has a voluntary
                  dispute-resolution program that provides facilitation and mediation
                  assistance to States and manufacturers during rebate disputes. CMS
                  previously sponsored conferences at which manufacturers and States could
                  meet to resolve disputes, but has not done so since 2009. States can
                  contact the regional CMS staff member assigned to dispute resolution or
                  submit questions by email.



                  13
                     States can also review old data and previous invoices. If a State finds that it was
                  underpaid because a drug was invoiced using the wrong type of unit, resulting in an
                  incorrect number of units, the State can request an adjustment from the manufacturer.
                  14
                     CMS, Best Practices for States, § II6, and Best Practices for Drug Manufacturers,
                  § II5. Accessed at http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-
                  Topics/Benefits/Prescription-Drugs/Medicaid-Drug-Rebate-Program-Dispute-
                  Resolution.html on April 29, 2014.
                  15
                     Ibid. 

                  16
                     OIG, Review of the Medicaid Drug Rebate Program in California, A-09-03-00038, 

                  December 2003; OIG, Follow-Up Review of the Medicaid Drug Rebate Program in

                  Florida, A-04-07-00022, April 2008; OIG, Review of the Medicaid Drug Rebate 

                  Program in Illinois, A-05-08-00011, July 2008; OIG, Follow-up Review of the Medicaid 

                  Drug Rebate Program in Michigan, A-05-08-00014, July 2008. 

                  17
                     CMS, Sample Drug Rebate Agreement, § V(c). See footnote 12 for URL. 



Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                           4
                  In addition to having the voluntary dispute-resolution program, CMS has
                  issued documents to assist States and manufacturers with dispute
                  resolution. Among these documents are several “program releases” on the
                  topic, as well as documents with best practices for resolving disputes.
                  Related Reports
                  Previous OIG reports have indicated concerns about States’ ability to
                  properly invoice manufacturers, resolve disputes, and collect all rebates
                  owed to them. In 2005, OIG found that many States lacked adequate
                  assurance that all drug rebates owed to them were properly recorded or
                  collected, and that CMS did not have reliable billing and collection
                  information to properly monitor the drug rebate program.18 Specifically,
                  this study found that 15 States had inadequate processes for dispute
                  resolution and rebate collection.19 A 2011 followup study found that
                  6 States (including 2 of the original 15) had inadequate processes for
                  dispute resolution and rebate collection.20

                  METHODOLOGY
                  This review presents information collected from selected States and
                  manufacturers related to preventing and resolving disputes. In addition,
                  we collected information from CMS on its role in helping States prevent
                  and resolve disputes. See Appendix A for a detailed methodology.
                  Sample
                  State selection. To determine the extent to which rebates are disputed
                  under the Medicaid drug rebate program, we collected data from 31 States.
                  These States indicated that they had the capability to provide all of the
                  data that the OIG planned to request.
                  Initially, we surveyed all States and the District of Columbia (hereinafter
                  referred to as States) about their ability to provide data such as the amount
                  of money ever in dispute, the amount of money currently in dispute, and
                  the total amount of money invoiced since the rebate program began.
                  Thirty-one States indicated that they could provide all of the requested
                  information, and 20 States indicated that they could not.
                  To address the other evaluation objectives, we purposively selected a
                  sample of 12 States for more in-depth review. We selected 6 States from


                  18
                     OIG, Multistate Review of Medicaid Drug Rebate Programs, A-06-03-00048, 

                  July 2005. 

                  19
                     Ibid. 

                  20
                     OIG, Nationwide Rollup Report for Medicaid Drug Rebate Collections, 

                  A-06-10-00011, August 2011. 



Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                      5
                  the 31 States that indicated they could provide the requested data and
                  6 States from the 20 States that indicated they could not. We purposively
                  selected States this way to include States with different levels of
                  sophistication in their dispute-tracking systems, so as to represent
                  variation among States in their capacity to track and address disputes. In
                  addition, to maximize our coverage of Federal funds invested in the rebate
                  program, we selected these 12 States from those with the highest drug
                  expenditures.
                  Manufacturer selection. To determine which manufacturers to select, we
                  used information provided from all States as to which manufacturers
                  worked more cooperatively to resolve disputes in a timely manner and
                  which did not. We purposively selected manufacturers using these criteria
                  to obtain a broad perspective of how manufacturers handle dispute
                  resolution. The five manufacturers we interviewed included two that
                  States most often reported as more cooperative and three that States most
                  often reported as less cooperative.
                  Data Collection
                  Data request. In May 2013, we sent a data request to the 31 States that
                  indicated they could provide OIG’s requested data. We received
                  responses from all 31 States. The data request focused on quantifying the
                  amount of money that States had in dispute at the time of our data request.
                  State survey and structured interviews. Also in May 2013, we sent a
                  survey to the 12 selected States. We received survey responses from all
                  12 States. In June 2013, we conducted followup structured interviews
                  with each of these States.21
                  Limitations
                  The results of this report cannot be extrapolated nationally (i.e., across all
                  States), nor can they be extrapolated across all manufacturers.
                  All data were self-reported by States and manufacturers and represent their
                  perspectives on Medicaid drug disputes.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  21
                    In some cases, States use a contractor for drug rebate functions. Some States invited
                  their contractors to attend the interviews.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                 6
                  FINDINGS
                  Twenty-nine of thirty-one States that could provide
                  data estimated that only a small percentage of rebate
                  dollars were disputed
                  Twenty-nine of thirty-one States that could provide data estimated that, of
                  the amount of money they invoiced for rebates in calendar year
                  (CY) 2012, 6 percent or less was in dispute. Specifically, 24 of these
                  29 States reported 2 percent or less of the money from CY 2012 rebate
                  invoices in dispute. Of the two States that reported that more than
                  6 percent was in dispute, one reported that 14 percent of the money it
                  invoiced was in dispute, and the other reported 25 percent.22
                  While the percentage of money in dispute appears to be small, it still
                  represents millions of dollars. Six of the thirty-one States provided dollar
                  amounts for their estimated percentages of money in dispute from
                  CY 2012 rebate invoices; these disputed amounts totaled $5.2 million.
                  This represents 2 percent or less of the money invoiced in these States.
                  The remaining 25 States could not provide estimates that distinguished
                  between invoice amounts that were disputed and those that were unpaid
                  for other reasons.
                  Because disputes can be resolved in favor of the State or manufacturer, the
                  entirety of the estimated money in dispute is likely not owed to the State
                  or Federal government. However, the entirety of the money represents
                  unresolved disputes that parties are expending resources to monitor and
                  resolve.

                  Poor-quality data is a primary cause of frequent rebate
                  disputes in 12 selected States
                  Within the small percentage of money in dispute, certain types of disputes
                  occur frequently. These disputes are typically associated with (1) drugs
                  with complicated unit-of-measure conversions, (2) physician-administered
                  drugs, (3) 340B-purchased drugs, and (4) terminated drugs.23



                  22
                     The State that reported the figure of 14 percent indicated that this percentage was
                  associated with retroactive rebate invoices for drugs dispensed by Medicaid managed
                  care organizations. These invoices dated back to 2010, and the State found that disputes
                  were higher for those retroactive rebate invoices. The State that reported a figure of
                  25 percent indicated that only 2 percent was for mandated Medicaid rebates. The
                  remaining 23 percent in dispute was for additional rebates that the State negotiated with
                  manufacturers.
                  23
                     A terminated drug is a drug that is no longer manufactured.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                               7
                  States struggle with preventing these disputes because of poor-quality
                  data. States reported receiving poor-quality claims data from providers
                  and pharmacies. In addition, States reported challenges in obtaining
                  accurate data from other sources to remove drugs that are ineligible for
                  rebates. See Table 1 for the relationship between the type of dispute and
                  the related data problems that States reported.
                  Table 1: Causes of Frequent Types of Rebate Disputes

                    Type of Dispute                                   Cause Reported by States         Number of States

                    Unit-of-measure conversions
                                                                     Poor-quality claims data from                  10
                                                                       providers and pharmacies
                    Physician-administered drugs

                    340B-purchased drugs
                                                                     Poor-quality data as to which                   7
                                                                    drugs are ineligible for rebates
                    Terminated drugs

                  Source: OIG analysis of survey responses, 2013.

                  Ten of the twelve selected States reported that poor-quality
                  claims data lead to disputes regarding unit-of-measure
                  conversions and physician-administered drugs
                  Ten of the twelve selected States reported that poor-quality Medicaid
                  claims data from providers and pharmacies can result in disputes regarding
                  drugs with complex unit-of-measure conversions (i.e., drugs delivered as
                  liquids, creams, or aerosols) and physician-administered drugs. The
                  five selected manufacturers also said that these types of disputes were
                  frequent.
                  Unit-of-measure conversions. Nine of the ten States reported that one way
                  they receive inaccurate claims data is when providers or pharmacies
                  submit the wrong number of units. Three of these ten States reported that
                  physician-administered drugs, which are typically liquid injectable drugs,
                  are especially prone to unit-of-measure mistakes. The five selected
                  manufacturers also indicated that unit-of-measure issues continue to cause
                  frequent disputes.
                  Determining the correct units to bill is not always straightforward,
                  particularly for drugs in nontablet form (e.g., liquid-filled syringes or
                  creams). For example, 1 dose of albumin is 12.5 grams per 240 milliliters.
                  Solutions, injectable liquids, and drugs measured by volume should be
                  billed as the number of milliliters, not grams. With such drugs, the
                  provider or pharmacy would have to calculate the correct number of
                  milliliters and include that number of units on the claim. For example, if
                  2 doses of albumin were administered, the units to be billed to Medicaid
                  would be 480 units, not 25 units.

Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                           8
                  Physician-administered drugs. Three of the ten States reported that
                  another way they receive inaccurate data is when providers include the
                  wrong NDC on claims for physician-administered drugs. One State noted
                  that it sometimes receives NDCs for a completely different drug or for a
                  different drug within the same “product line.” In some cases, the HCPCS
                  codes that providers use to bill for physician-administered drugs cover
                  many NDCs representing different manufacturers.
                  States have limited ability to determine whether the NDC listed on the
                  claim from the provider is correct. In the case of an NDC for a completely
                  different drug, States may be able to catch this error if they have access to
                  a “crosswalk” that indicates which NDCs are linked to the HCPCS code
                  on the claim. In the case of an NDC for a different drug within the same
                  product line—i.e., one of the NDCs associated with a given HCPCS
                  code—there is little States can do to determine whether the provider billed
                  for the correct NDC, short of requesting medical records or talking
                  directly to the provider. Because of these limitations, States may invoice
                  manufacturers for the wrong drug, leading to disputes.
                  Seven of the twelve selected States reported that poor-quality
                  data regarding ineligible drugs lead to disputes associated
                  with 340B-purchased drugs and terminated drugs
                  Seven of the twelve selected States reported that the data they need to
                  exclude ineligible drugs from rebate invoices are of poor quality. This
                  occurs primarily with 340B-purchased drugs and terminated drugs.
                  340B-purchased drugs. States reported that it can be difficult to ensure
                  that all drugs that receive an upfront discount under the 340B program are
                  excluded from the rebate invoice. Four of the twelve selected States
                  reported that disputes related to 340B-purchased drugs occurred
                  frequently. Four of the five selected manufacturers agreed.
                  States reported problems with the Medicaid Exclusion File, the official list
                  of covered entities that dispense 340B-purchased drugs to Medicaid
                  patients. Specifically, States noted that the file sometimes was not up to
                  date or was inaccurate. Without accurate data on which covered entities
                  dispense 340B-purchased drugs to Medicaid patients, States cannot
                  effectively program their systems to identify claims for 340B-purchased
                  drugs and exclude them from rebate invoices.
                  Terminated drugs. Three States reported that another way that ineligible
                  drugs are invoiced for rebates is when States lack updated or complete
                  information needed to remove terminated drugs from rebate invoices.



Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                  9
                  One State noted that it receives updated information about terminations
                  from CMS only on a quarterly basis.24 Another State reported that the
                  information from CMS may not indicate all terminated drugs because
                  manufacturers do not always report drug terminations in a timely way.
                  This State reported that some manufacturers do not report a drug’s
                  termination until years after the fact.

                  Selected States Struggle To Provide the Data
                  Necessary To Resolve Disputes
                  All 12 selected States reported that they struggle to provide data needed to
                  resolve disputes. First, States had difficulties providing claims data to
                  manufacturers. Second, when claims data are insufficient to resolve
                  disputes, States struggle to provide source data, particularly if the disputes
                  are about old claims.25
                  Four of the twelve selected States reported difficulties in
                  providing claims data to manufacturers
                  Four of the twelve selected States reported that it was difficult to provide
                  claims data to manufacturers. States and manufacturers agreed that,
                  despite potential inaccuracies with claims data, reviewing these data is a
                  helpful first step in pinpointing the cause of disagreement.
                  States reported that providing claims data is time consuming, especially if
                  records are on paper or require manual review. One State reported that it
                  has a spreadsheet with multiple pages and thousands of lines to review
                  prior to sending claims data to manufacturers. Another mentioned that it
                  had to review claims data to remove confidential beneficiary information
                  before sharing with manufacturers.
                  In addition, all five selected manufacturers reported problems in
                  efficiently using claims data received from States, which delays dispute
                  resolution. For example, two manufacturers reported that necessary
                  information, such as provider number or provider name, is missing from
                  some States’ claims data. As a result, manufacturers must go back to the
                  States for the additional information, which delays resolution.
                  Additionally, all five manufacturers reported that receiving
                  nonstandardized data from States is a problem. Manufacturers must
                  reformat nonstandardized data, which also delays resolution.


                  24
                     CMS staff reported that if they choose, all States have the ability to access the DDR
                  system, which provides real-time drug status. 

                  25
                     Source data is documentation of the drug provided, maintained in the records of

                  providers and pharmacies.



Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                  10
                  Four of the twelve selected States reported difficulties in
                  obtaining source data when claims data are insufficient to
                  resolve disputes
                  Four of the twelve selected States reported difficulties in obtaining source
                  data to resolve disputes. States need source data when manufacturers
                  suspect that claims data are inaccurate and request further proof to resolve
                  disputes.
                  However, source data can be challenging for States to obtain because it
                  can be hard to reach providers and pharmacies. For example, three States
                  reported that when they contact a provider or pharmacy, the person they
                  reach may be an administrative or billing staff member who does not
                  know specifics as to what drugs were used or why they were used. Such
                  an individual would be able only to provide information listed on a
                  medical record, and would not be able to tell if there was an error in a
                  record. Further, because of providers’ clinical responsibilities, reaching
                  the provider can be difficult or time consuming.
                  All of the 12 selected States reported difficulties in obtaining
                  data for disputes about old claims
                  The 12 selected States reported difficulties in obtaining information for
                  disputes about old claims. Two States reported that they have trouble
                  reviewing their own claims data before a certain year because system
                  upgrades have made accessing old data difficult or impossible.
                  Additionally, States reported that they have trouble verifying the accuracy
                  of older claims with providers or pharmacies. Providers or pharmacies
                  may no longer be enrolled in Medicaid when States attempt to contact
                  them, in which case States cannot compel them to provide the source data
                  needed to resolve the dispute. Even when States are able to contact
                  providers or pharmacies, data needed may be past the statute of limitations
                  for medical records retention and therefore unavailable.26

                  Selected States and Manufacturers Are Interested In
                  Greater CMS Involvement in Preventing and Resolving
                  Disputes
                  According to the 12 selected States and 5 selected manufacturers, greater
                  CMS involvement in preventing and resolving disputes could be helpful.
                  States reported that they want more general involvement from CMS in
                  both preventing and resolving disputes.

                  26
                    Among the 12 selected States, the statute of limitations for medical records retention
                  ranged between 3 and 10 years.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                  11
                  All 12 selected States would like help from CMS in preventing
                  disputes
                  All 12 selected States wanted help from CMS in preventing disputes.
                  Five of them suggested additional guidance that CMS could provide.
                  Nine of them had specific suggestions as to how CMS could help with
                  disputes related to drugs that are ineligible for rebates.
                  Five of the twelve selected States suggested that additional guidance from
                  CMS could help prevent a variety of disputes. For example, one State
                  requested that CMS issue guidance defining when it is acceptable for a
                  manufacturer to initiate a dispute. The State noted that there is no
                  disincentive for a manufacturer to initiate a dispute, because the burden is
                  on the State to prove the dispute is not valid. This State recounted
                  difficulties with a manufacturer that disputed any prescription dosage over
                  the average dose, even for doses within the manufacturer’s own
                  recommended dosage range (listed on the drug’s package insert). Another
                  State also faced this problem and suggested that to avoid this type of
                  dispute, CMS should establish a range of reasonable values to be used
                  when manufacturers review invoices.
                  Nine States also made suggestions as to how CMS could assist with
                  frequent disputes related to drugs that are ineligible for rebates. States
                  said that to help them exclude 340B-purchased drugs, CMS should
                  (1) work with HRSA to improve the accuracy of the Medicaid Exclusion
                  File and (2) encourage States to require pharmacies to identify
                  340B-purchased drugs on claims. States said that to help them exclude
                  terminated drugs, CMS should (1) require manufacturers to report
                  termination dates in a timely manner and (2) update termination
                  information weekly, not quarterly.
                  Eleven of the twelve selected States suggested that active
                  CMS involvement could help resolve disputes
                  States suggested that greater CMS involvement could assist in dispute
                  resolution. States noted that CMS is the legal party to the rebate
                  agreement with manufacturers and has more influence over manufacturers
                  than they do.27 For example, eight States reported that when CMS became
                  involved, formerly nonresponsive manufacturers became responsive.
                  Four States suggested that greater CMS involvement would increase
                  efficiency for all parties. For example, if multiple States have the same

                  27
                   Technically, the Secretary is the legal party to the rebate agreement with
                  manufacturers. However, CMS has been designated by the Secretary to administer the
                  Medicaid drug rebate program.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                            12
                  type of dispute with the same manufacturer, CMS could facilitate a single
                  conversation between the manufacturer and the group of States,
                  eliminating the need for multiple separate conversations.
                  Additionally, three States noted that the past CMS-sponsored conferences
                  on dispute resolution were helpful and two of the three specifically
                  suggested that CMS resume these conferences. One of the three States
                  reported that these conferences were helpful because (1) a State could talk
                  to many manufacturers over the course of the conference, and (2) the
                  conferences helped reveal to CMS and manufacturers that multiple States
                  were having the same problems. Two manufacturers agreed that previous
                  CMS-sponsored meetings had been helpful.
                  Two of the twelve selected States and all five of the selected
                  manufacturers suggested that CMS could improve dispute
                  resolution by helping States provide standardized data
                  Two of the twelve selected States and all five of the selected
                  manufacturers suggested that to improve dispute resolution, CMS could
                  help States resolve their problems in providing claims data. First, States
                  and manufacturers said that they would like help from CMS in facilitating
                  the electronic transmission of claims data—for example, by developing a
                  central repository for States and manufacturers to use to transmit claims
                  data. They suggested that a central repository in one format would reduce
                  the time it takes to request and reformat data from States. Second,
                  manufacturers would like CMS to encourage that claims data be
                  standardized. Some suggested that CMS could specify what data elements
                  should be provided and require that the data be in a universal format.
                  Nine of the twelve selected States suggested that CMS
                  establish a statute of limitations for initiating disputes
                  Nine states suggested that CMS could minimize disputes that are
                  challenging to resolve by establishing a statute of limitations regarding
                  manufacturers’ ability to initiate a dispute (e.g., manufacturers could not
                  open a dispute more than 3 years after an invoice was submitted). This
                  would increase the likelihood that States would have access to the data
                  needed to verify the accuracy of the claims data.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                     13
                  CONCLUSION AND RECOMMENDATIONS
                  Within the small percentage of rebate money in dispute, certain types of
                  disputes occur frequently in the 12 selected States. These States struggle
                  with preventing these disputes because of poor-quality data, including
                  claims data from providers and pharmacies and data needed to effectively
                  remove drugs that are ineligible for rebates.
                  States and manufacturers reported that disputes can be difficult to resolve.
                  To resolve a dispute, a State must prove that a rebate is owed for the
                  disputed number of units. This typically involves providing claims data to
                  manufacturers and may also require obtaining source data from providers
                  and pharmacies. Both activities are time consuming for States and are
                  particularly difficult for disputes about old claims.
                  We recommend that to help prevent and resolve drug rebate disputes,
                  CMS:

                  Work with States to improve the quality of claims data
                  submitted by providers and pharmacies
                  CMS should work with States to improve data that States receive from
                  providers and pharmacies. CMS should work with States to educate
                  providers and pharmacies on (1) how to accurately calculate units on
                  claims for drugs with complicated unit-of-measure conversions and (2) the
                  importance of submitting the correct NDC on claims for
                  physician-administered drugs. Improving the quality of claims data will
                  increase the accuracy of rebate invoices that States send to manufacturers,
                  thus reducing disputes.

                  Help States obtain better data on ineligible drugs
                  CMS should help States obtain accurate and up-to-date data on ineligible
                  drugs. CMS should inform States of the option for them to identify, at the
                  claim level, 340B-purchased drugs that are ineligible for rebates. States
                  can instruct covered entities to use the industry-accepted standard to
                  identify Medicaid claims for 340B-purchased drugs. However, when OIG
                  asked States about this method in 2010, only nine States reported that they
                  instruct covered entities to identify 340B-purchased drugs on Medicaid
                  claims.28
                  CMS should also work to ensure that data about terminated drugs are
                  accurate and up to date. CMS could accomplish this by working with

                  28
                   OIG, State Medicaid Policies and Oversight Activities Related to 340B-Purchased
                  Drugs, OEI-05-09-00321, June 2011.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                          14
                  States to learn which manufacturers may be delayed in submitting
                  termination data. Then, CMS could conduct one-one-one outreach to
                  these manufacturers or send a targeted reminder to these manufacturers
                  about their responsibility to report termination dates in a timely manner.

                  Facilitate States’ submission of standardized claims data
                  Although it is not mandatory for States to submit claims data to
                  manufacturers, some States do so to help resolve disputes and clarify
                  manufacturers’ questions. To make this data exchange more useful and
                  efficient, CMS could work with States and manufacturers to develop a
                  core set of variables that States could transmit to manufacturers.
                  Additionally, CMS could work with States and manufacturers to develop a
                  recommended standardized format for this core set of variables.

                  Establish a stronger role in dispute resolution
                  CMS, as the delegate of the Secretary (who is the legal party to the rebate
                  agreement), should be more engaged in dispute resolution. CMS
                  involvement could help States and manufacturers reach agreement more
                  quickly, enforce agreements, or bring multiple issues to the forefront at
                  once.
                  CMS should provide more opportunities for States and manufacturers to
                  interact and work on dispute resolution. For example, CMS could
                  reestablish the CMS-sponsored conferences on dispute resolution.
                  Alternatively, CMS could consider regional conferences, or the agency
                  could host a videoconference or teleconference with a different
                  manufacturer each quarter.
                  In addition, CMS should provide additional opportunities for States to
                  collaborate on dispute resolution. CMS could do this by creating an
                  online forum for States to obtain technical assistance, either from CMS or
                  from each other.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                     15
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our first three recommendations and partially
                  concurred with our fourth recommendation. CMS described ongoing
                  activities in support of our recommendations, and it listed topics for which
                  it is considering issuing additional guidance. OIG acknowledges CMS’s
                  planned activities and encourages CMS to take the additional steps
                  necessary to address our recommendations.
                  For the first recommendation, CMS stated that it will consider issuing
                  additional guidance to States and manufacturers about accurately
                  calculating units on claims for drugs with complicated unit-of-measure
                  conversions and about the importance of submitting the correct NDC on
                  claims for physician-administered drugs. OIG encourages CMS to issue
                  this guidance and suggests that CMS guidance to States also address
                  improving the quality of Medicaid claims data submitted by providers and
                  pharmacies.
                  For the second recommendation, CMS addressed ineligible
                  340B-purchased drugs and terminated drugs. For 340B-purchased drugs,
                  CMS indicated that it is working with HRSA regarding guidance on such
                  drugs. OIG encourages CMS to continue working with HRSA to finalize
                  the guidance and ensure that the guidance addresses how to flag claims for
                  340B-purchased drugs. Regarding terminated drugs, CMS reiterated that
                  States can view current drug data in the Drug Data Reporting (DDR)
                  system for Medicaid and indicated that it has added a new field for
                  identifying when a termination date was reported. CMS also indicated
                  that it is considering issuing additional guidance to manufacturers about
                  the need to provide accurate information to the DDR regarding a drug’s
                  termination date. OIG encourages CMS to take the steps necessary to
                  issue this guidance.
                  For the third recommendation, CMS stated that it will offer technical
                  assistance to States that require help in identifying methods to improve the
                  quality of claims data, and that it will consider additional guidance to
                  States on best practices for submitting claims data. The actions to which
                  CMS commits are excellent steps to respond to our first recommendation,
                  and we encourage CMS to implement them. However, we wish to clarify
                  that the third OIG recommendation refers to the claims data that States
                  submit to manufacturers to help resolve rebate disputes, not the claims
                  data that providers and pharmacies send to States to be reimbursed for
                  dispensing drugs to Medicaid patients. To respond to the third
                  recommendation, CMS should work with States to develop a standard set


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                  16
                  of variables that States could transmit to manufacturers to help resolve
                  disputes more efficiently.
                  For the fourth recommendation, CMS indicated that it would take some
                  actions to reinforce dispute resolution, but it did not agree to take a more
                  active role. CMS indicated that it plans to issue dispute-resolution
                  guidance to reiterate best practices both for States and manufacturers.
                  CMS also indicated that its staff, including regional office coordinators of
                  the dispute resolution program, will continue to respond to State and
                  manufacturer inquiries. These efforts will be helpful and OIG encourages
                  them, but we continue to believe that disputes could be resolved more
                  efficiently and quickly if CMS took a more active role. For example,
                  CMS could identify areas of common concern and attempt to resolve
                  them. OIG appreciates CMS’s resource constraints and urges CMS to
                  consider low-cost solutions for involvement, such as videoconferences or
                  teleconferences, for a more active role in dispute resolution.
                  We did not make any changes to the report as a result of CMS’s
                  comments. For the full text of CMS’s comments, see Appendix B.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                  17
                  APPENDIX A
                  Detailed Methodology
                  Sample
                  State selection. The 31 States indicating that they could fully respond to
                  OIG’s data request were Alabama, Arkansas, Colorado, Florida, Georgia,
                  Hawaii, Idaho, Indiana, Iowa, Kansas, Louisiana, Maine, Maryland,
                  Massachusetts, Mississippi, Montana, Nevada, New Jersey, New Mexico,
                  New York, Ohio, Oregon, South Dakota, Texas, Utah, Vermont, Virginia,
                  Washington, West Virginia, Wisconsin, and Wyoming.
                  The 12 States we selected for more in-depth review were California,
                  Florida, Indiana, Illinois, Louisiana, Michigan, Missouri, New York,
                  North Carolina, Ohio, Tennessee, and Texas.29 Together, these States
                  represented 68 percent of total Medicaid drug expenditures in FY 2011.
                  To determine States’ drug expenditures, we analyzed the data that States
                  report to CMS on a quarterly basis.30 We obtained these data from CMS’s
                  Medicaid Budget and Expenditure System for each State in FY 2011.
                  Manufacturer selection. We purposively selected seven manufacturers to
                  include in our review. We selected three manufacturers that States most
                  often reported as more cooperative and three manufacturers that States
                  most often reported as less cooperative. We also selected one
                  manufacturer that an equal number of States reported as more cooperative
                  and less cooperative. After selecting the sample, we excluded
                  two manufacturers because of ongoing OIG investigations. The final
                  five manufacturers included two that States most often reported as more
                  cooperative and three that States most often reported as less cooperative.
                  Data Collection
                  Data request. Specifically, we asked States to provide the amount of
                  money in dispute for rebates invoiced in CY 2012 and to determine the
                  percentage that this represented from all money invoiced for rebates for
                  the same period. We asked States to include (if possible) national and
                  supplemental rebates and to exclude uncollected money resulting from
                  URA changes.



                  29
                     The sample of 12 States included 6 States (Florida, Indiana, Louisiana, New York,
                  Ohio, and Texas) that were in the group of 31 States and 6 States (California, Illinois,
                  Michigan, Missouri, North Carolina, and Tennessee) that were not.
                  30
                     States report these data using Form CMS-64, Quarterly Expense Report. This form
                  tracks expenditures for which States are entitled to Federal reimbursement and the share
                  of rebates that States must remit to the Federal government.


Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                  18
                  State survey and structured interviews. The survey focused on the types
                  of disputes that States receive from manufacturers and how States resolve
                  disputes. Specifically, we asked States about the types of disputes that
                  occurred frequently, what they believed caused those disputes, the
                  methods they use to resolve disputes, suggestions they had for changes to
                  the rebate program that would enhance their ability to prevent and resolve
                  disputes, and about CMS’s involvement in the dispute-resolution process.
                  In the followup interviews, we asked States to clarify their responses to
                  the survey and to provide additional context about their responses.
                  Primarily, we asked each State to provide more information about the
                  reasons for disputes in its State and for more detailed descriptions of its
                  dispute-resolution methods.
                  Structured interviews with selected manufacturers. In June 2013, we also
                  conducted structured interviews with the five selected manufacturers. We
                  asked them about the reasons they dispute rebate invoices, the steps they
                  take to prevent and resolve disputes, and the factors that facilitate or
                  hinder dispute resolution.
                  Structured interview with CMS. In June 2013, we also conducted a
                  structured interview with the CMS staff responsible for the drug rebate
                  dispute-resolution program. We asked questions about the status of the
                  program and how CMS assists States and manufacturers in resolving
                  disputes.
                  Data Analysis
                  To determine the extent to which rebates were disputed, we analyzed the
                  31 States’ responses to our data request. We grouped States by the
                  percentage of money in dispute that they reported, and we counted the
                  number of States in each group. In addition, for the States that could
                  provide precise estimates of money in dispute, we summed the figures
                  they provided to obtain a total amount of money in dispute.
                  To identify which types of disputes States reported as occurring more
                  frequently, the challenges that States face, and States’ suggestions for
                  improvements, we analyzed the 12 States’ survey responses by theme.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                     19
                       APPENDIX B
                       Agency Comments


  ./·~·'"""'<,
 (,, E..          DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Centers tor Medicare & Medicaid Services


    "'"<~aa                                                                             Administrator
                                                                                        Washington, DC 20201




                 DATE:          JUL -8 2014

                 TO:           Daniel R. Levinson
                               Inspector General
                                                  /S/
                 FROM:         .Manryn TaV£nner
                                Administrat011

                 SUBJECT: Office oflnspector General (OIG) Draft Report: "Medicaid Drug Rebate Dispute
                 Resolution Could Be Improved" (OEI-05-11-00580)


                 Thank you for the opportunity to review and comment on the above-referenced OIG draft report.
                 The Centers for Medicare & Medicaid Services (CMS) appreciates the information presented in
                 the report and offers the following comments.

                 The Medicaid Drug Rebate (MDR) Dispute Resolution Program (DRP) is an alternative dispute
                 resolution process developed and administered by CMS that provides assistance to
                 manufacturers and states when MDR amounts are in dispute. The purpose of the report was to
                 determine the extent to which rebates are disputed under the MDR program, the causes of
                 frequently occurring dispute types, challenges states face in resolving disputes, and what
                 measures states and drug manufacturers believe will help prevent or resolve disputes.

                 The OIG recommendations and CMS responses to the recommendations are discussed below.

                 OIG Recommendation

                 The OIG recommends that CMS work with States to improve the quality of claims data
                 submitted by providers and pharmacies.

                 CMS Response

                 The CMS concurs with OIG's recommendation. CMS has issued guidance (State Release No.
                 162 and State Medicaid Directors Release No. 151) to assist with reporting physician­
                 administered drugs. Additionally, we will consider issuing further guidance to states and
                 manufacturers on how to accurately calculate units on claims for drugs with complicated unit of
                 measure conversions, and the importance of submitting the correct national drug code on claims
                 for physician-administered drugs. CMS also continues to issue sub-regulatory guidance to assist
                 states and manufacturers regarding unit type and units per package size reporting for covered
                 outpatient drugs.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                                                        20
Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)   21
Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)   22
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago regional
                  office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
                  Laura Kordish, Deputy Regional Inspector General.
                  Nicole Hrycyk served as the team leader for this study, and
                  Carolyn Pichert served as the project lead. Other Office of Evaluation and
                  Inspections staff from the Chicago regional office who conducted the
                  study include Poppy Coleman and Cassie Yarbrough. Central office staff
                  who provided support include Althea Hosein, Kevin Manley, and
                  Christine Moritz.




Medicaid Drug Rebate Dispute Resolution Could Be Improved (OEI-05-11-00580)                  23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
